        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
American Recovery and
Reinvestment Act – New York State
Energy Program




OAS-RA-12-08                               April 2012
                                  Department of Energy
                                    Washington, DC 20585

                                          April 19, 2012



MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY
                                    for
FROM:          Rickey R. Hass
               Deputy Inspector General
                  for Audits and Inspections
               Office of Inspector General
SUBJECT:                  INFORMATION: Audit Report on "The Department of Energy's
                          American Recovery and Reinvestment Act – New York State Energy
                          Program"
BACKGROUND
The Department of Energy's State Energy Program (SEP) provides grants to states, territories
and the District of Columbia (states) to support their energy priorities and fund projects that meet
their unique energy needs. The American Recovery and Reinvestment Act of 2009 (Recovery
Act) significantly expanded the SEP by providing an additional $3.1 billion for state projects.
The New York State Energy Research and Development Authority (NYSERDA) was allocated
$123.1 million in SEP funds under the Recovery Act—a more than 63-fold increase over its
Fiscal Year 2008 SEP grant of about $1.94 million. NYSERDA planned to use its grant funds to
undertake multiple energy efficiency and renewable energy programs and projects throughout
the State of New York (New York), and for subcontractors to oversee and validate certain
projects.
To maximize the effectiveness of its Recovery Act grant, NYSERDA officials indicated that they
made an extensive effort to distribute funds to as many recipients as possible across the State.
Specifically, NYSERDA allocated funds to 6 separate programs that could impact nearly 1,000
recipients. Under three of these programs, NYSERDA provided approximately $104 million
through various fixed-price agreements for energy efficiency and renewable energy projects. For
the remaining programs, NYSERDA provided almost $13 million for cost-reimbursable
contracts with commercial entities to provide project management, administrative and evaluative
functions. NYSERDA has until April 30, 2012 to expend its Recovery Act funds.
Given the significance and wide impact of the Recovery Act on grant recipients, we initiated this
review to determine whether NYSERDA's use of Recovery Act funds was in accordance with
Department SEP requirements.

CONCLUSIONS AND OBSERVATIONS

NYSERDA had, for the most part, implemented processes and controls to manage its SEP
Recovery Act funding and was generally in compliance with the selected Recovery Act
requirements we examined during our review. However, we identified several concerns that
should be addressed to ensure that Recovery Act goals are met. Specifically, our review
revealed that NYSERDA:

       Planned to advance over $1.2 million to a contractor for work scheduled to be completed
       after the April 30, 2012, expiration date of NYSERDA's Recovery Act grant; and,

       Paid improper travel and unsupported costs of approximately $12,825 to its contractors
       and subcontractors.

Additionally, we noted that NYSERDA had been slow to expend its grant funds. As of
December 22, 2011, NYSERDA had expended only about 60 percent of its award. We
determined that NYSERDA may have difficulty expending the remaining funds before the
April 2012 expiration date of its Recovery Act grant. Subsequently, NYSERDA informed us
that, as of February 27, 2012, expenditures had increased to approximately 75 percent of the
award and the Department had granted a 6-month time extension to complete a small subset of
projects. NYSERDA officials told us they were confident that their Recovery Act goals would
be met within the established timeframes.

                                       Advance Payment

NYSERDA included an option in one of its cost-reimbursable contracts to prepay a contractor
over $1.2 million for work to be completed after the expiration date of NYSERDA's Recovery
Act grant. Departmental guidance states that advances paid to recipients of grant funds should be
for actual and immediate cash needs. All other payments should be either progress payments as
work is being completed or final payments after the completion of the project. However, for one
of its six programs, NYSERDA planned to conduct long-term evaluations of the energy savings,
cost effectiveness and economic impact of its Recovery Act activities. Specifically, NYSERDA
entered into a nearly $3.5 million contract to conduct evaluations throughout New York,
including an advance payment option for over $1.2 million to fund future program evaluation
work. In particular, the optional work was scheduled to be performed through September 13,
2013, considerably beyond NYSERDA's original grant expiration date of April 30, 2012.

                                     Cost Reimbursements

NYSERDA reimbursed its contractors and subcontractors for travel costs exceeding allowable
amounts and additional unsupported costs of approximately $12,825. To facilitate its
implementation of the Recovery Act, NYSERDA issued nine cost-reimbursable contracts for
project management, program evaluations and training. NYSERDA contractors hired
subcontractors as needed. Under the agreements, contractors were reimbursed for costs incurred
—which included travel and allowable subcontractor costs—for monitoring projects, conducting
training sessions and gathering necessary project data. Consistent with OMB Circular A-87, the
Department required NYSERDA to comply with the Federal Travel Regulation (FTR).
NYSERDA also requires its contractors to follow the FTR. The regulations establish maximum
allowable per diem rates for lodging costs and require receipts for incurred costs over $75.


                                               2
Through August 31, 2011, the 9 contractors submitted 73 invoices requesting nearly
$10.4 million in reimbursements. We reviewed 51 invoices, which included billings from
subcontractors, with total travel expenses of $144,578 and found that:

       Three contractors and two subcontractors had been reimbursed $4,157 in lodging costs
       that exceeded per diem rates. These overpayments were as high as $108 per night; and,

       Two contractors and three subcontractors invoiced and were paid approximately $4,868
       for unsupported costs. No receipts for these costs were found in the associated files
       reviewed. The costs were often described on the invoices only as transportation,
       subcontractor costs or simply expense reports, without additional clarification.
       Therefore, we were unable to determine whether the costs exceeded the $75 threshold for
       receipts.

In addition, we identified one contractor invoice from the same sample that included an
inappropriate subcontractor billing for $3,800 that was subsequently paid by NYSERDA. We
determined that the amount was for a subcontractor charge unrelated to NYSERDA work.

After we brought these issues to NYSERDA's attention, it took timely corrective action to
ascertain the full amount of improper travel costs paid and to recover the money from its
contractors. NYSERDA also took prompt corrective action to recover the $3,800 that had been
erroneously paid by contacting the contractor and requiring a credit on the account.

                                Direction, Policy and Contracts

The issues identified occurred, in part, because the Department's direction to NYSERDA was not
always timely and adequate. In particular, NYSERDA indicated that the Department did not
provide sufficient direction relating to the use of the advance payment option in its award of a
contract for evaluating the results of Recovery Act activities. In addition, the omission by
NYSERDA of a key Federal requirement from its policy and cost-reimbursable contracts
contributed to the problems observed.

Department Direction

We noted that the Department's direction to NYSERDA was not always timely and adequate.
With respect to advance payment, NYSERDA officials told us that, at the time they elected to
include the option in the contract, they believed that they were not specifically prohibited from
doing so. In particular, prior to finalizing the contract option in September 2010, NYSERDA
sought direction from the Department as to how to pay for project activities that would continue
beyond April 2012. According to Department officials, NYSERDA was informed by telephone
that a decision had not yet been made on this issue. NYSERDA officials contended, however,
that a decision was needed in order to move forward with the requirement to obligate all funds
by September 30, 2010. When no answer was received from the Department, NYSERDA
officials decided to include the prepayment provision as an option they could execute, as needed.
After we discovered this advance payment provision, we voiced our concern about NYSERDA
plans for using advance payment for work that was not to be completed until after the original
April 2012 grant completion date.
                                                3
Based on our concern, NYSERDA again requested direction from the Department. In July 2011,
the Department informed NYSERDA that no project work was to occur beyond the period of
performance. NYSERDA then asked the Department if it would be possible to extend the grant's
period of performance to allow the option to be exercised. The Department informed
NYSERDA that the issue was being considered by Office of Energy Efficiency and Renewable
Energy (EERE) management. According to NYSERDA officials, they had not received a
response from the Department regarding extension of the grant's performance period as of
December 2011. NYSERDA officials told us that, as a result, they decided to remove the
prepayment option and reallocate the funds.

NYSERDA Policy and Contracts

NYSERDA's omission of a key Federal requirement from its policy and cost-reimbursable
contracts limited the effectiveness of its cost controls over Recovery Act funds. We noted
previously that both the Department and NYSERDA indicated that FTR should be followed.
However, NYSERDA's policy did not incorporate the Federal requirement. Specifically, while
FTR required receipts for incurred costs over $75, NYSERDA's policy only required support for
incurred costs over $500 and the summarization of travel costs to show relevance to a project.
As a result, in contract invoice processing, NYSERDA was not identifying costs incurred that
exceeded established FTR per diem rates and unsupported travel costs. In response to our
official draft report, NYSERDA informed us that it revised its review procedures to ensure all
travel costs are in compliance with the appropriate Federal requirements.

Further, we noted that a clause requiring adherence to FTR was missing from most of
NYSERDA's cost-reimbursable contracts funded under the Recovery Act. Specifically, five of
the nine cost-reimbursable contracts NYSERDA issued did not include the required clause.
After we brought this matter to its attention, NYSERDA acknowledged that an FTR clause
should have been included in the contracts. NYSERDA officials told us that their standard cost
reimbursable-contract had been inadvertently switched with a standard milestone-type contract.
Without the proper clause in the existing contracts, NYSERDA contractors were not required to
follow FTR. Before the completion of our review, NYSERDA informed us that it was in the
process of modifying its cost-reimbursable contracts to include the requirement.

                                         Spending Delays

In addition to the issues identified above, NYSERDA experienced delays in spending. As of
December 22, 2011, NYDERDA had spent approximately $72 million or 60 percent of its
Recovery Act grant. We voiced our concerns about the slow pace of spending relative to the
original April 30, 2012, grant expiration date. The Department, in its May 2011 monitoring
report, also expressed concern about the pace of spending and required NYSERDA to develop a
Corrective Action Plan that included contingencies for each project and any disencumbered
funds, close monitoring of spending, and critical "do-or-die" dates for each project milestone.

To address its spending delays, NYSERDA cancelled projects that could not be completed
within the established timeframe and set deadlines that, if missed, would result in a project being
defunded. NYSERDA also developed a contingency plan to redirect the disencumbered funds

                                                 4
into other programs. As of February 27, 2012, NYSERDA had expended $91.7 million or
approximately 75 percent of the grant award. On March 5, 2012, NYSERDA officials informed
us that the Department granted a 6-month extension to provide additional time for the completion
of the remainder of its Recovery Act activities. NYSERDA officials told us they were confident
that their Recovery Act goals would be met within the established timeframes.

RECOMMENDATIONS

NYSERDA's corrective actions to address the issues we identified in this report, once completed,
will help it maximize the effectiveness of its project management and evaluations efforts, and
expedite the stimulative effect of its Recovery Act expenditures. Accordingly, we recommend
that the Assistant Secretary, Energy Efficiency and Renewable Energy:

      1. Ensure that NYSERDA only reimburses costs for work performed within the grant
         period;

      2. Direct NYSERDA to revise policy and modify contracts, as necessary, to improve the
         effectiveness of cost controls over Recovery Act funds; and,

      3. Closely monitor the progress of NYSERDA's projects to ensure Recovery Act goals are
         met and funds are properly and timely spent.

MANAGEMENT COMMENTS

EERE concurred with the recommendations and stated that it will continue to closely oversee the
work carried out under New York's SEP. In particular, EERE will reiterate the broader
responsibility of ensuring that costs are paid in the proper manner and will address the issue of
cost controls more closely in its upcoming monitoring visits. EERE also stated that it will
continue its efforts to ensure that Recovery Act goals are met and funds are spent in a proper and
timely manner. EERE's comments are included in Attachment 3.

NYSERDA's President and Chief Executive Officer concurred with our recommendations and
indicated that NYSERDA had already taken steps to address the report's observations.
NYSERDA believes it is on track to substantially expend its grant funds within the grant period
with the exception of a relatively small amount that may be spent within the recently granted
time extension. NYSERDA's comments are included in Attachment 4.

AUDITOR RESPONSE

EERE's and NYSERDA's comments are responsive to our recommendations.

Attachments

cc:    Deputy Secretary
       Associate Deputy Secretary
       Acting Under Secretary of Energy
       Chief of Staff
                                                5
                                                                                       Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the New York State Energy Research and
Development Authority's (NYSERDA) use of American Recovery and Reinvestment Act of
2009 (Recovery Act) funds was in accordance with the Department of Energy's (Department)
State Energy Program (SEP) requirements.

SCOPE

The audit was performed from March 2011 to April 2012, at NYSERDA in Albany, New York.
We also obtained information from the National Energy Technology Laboratory (NETL) in
Pittsburgh, Pennsylvania. The audit scope was limited to the State of New York's (New York)
SEP.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed Federal regulations and Department guidance related to the SEP and Recovery
       Act;

       Reviewed New York's SEP annual plan for Recovery Act funds;

       Reviewed New York's grantee documents for recipients of Recovery Act funds;

       Held discussions with NYSERDA personnel;

       Conducted on-site visits from a random sample of projects; and,

       Held discussions with program officials from NETL.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. Accordingly, we assessed significant internal
controls and compliance with laws and regulations necessary to satisfy the audit objective. In
particular, we assessed the Department's implementation of the GPRA Modernization Act of
2010 and determined that it had established performance measures for the management of the
SEP and the Recovery Act. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. Finally,
we did not rely on computer-processed data to accomplish our audit objective.



                                                 6
                                                                    Attachment 1 (continued)


We held an exit conference with the Department on April 3, 2012. The State of New York
waived an exit conference.




                                             7
                                                                                    Attachment 2


                                      PRIOR REPORTS

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Office of
Inspector General has initiated a series of audits designed to evaluate the Department of Energy's
State Energy Program's internal control structures at the Federal, state and local levels. During
our audits, we have noted similar findings such as impediments that adversely impacted the State
Energy Program spending rates, inadequate flowdown of Recovery Act provisions to sub-
recipients and inadequate monitoring of sub-recipients. However, it must be noted that these
issues do not exist in all the states we have audited. Our series of audit reports include the
following:

       Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       Arizona State Energy Program (OAS-RA-L-12-03, January 2012).

       Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       California State Energy Program (OAS-RA-11-10, July 2011).

       Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       New Jersey State Energy Program (OAS-RA-L-11-07, April 2011).

       Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       Massachusetts State Energy Program (OAS-RA-11-06, March 2011).

       Audit Report on Management Controls over the Department of Energy's American
       Recovery and Reinvestment Act – Michigan State Energy Program (OAS-RA-10-18,
       September 2010).


       Audit Report on Status Report: The Department of Energy's State Energy Program
       Formula Grants Awarded under the American Recovery and Reinvestment Act (OAS-
       RA-10-17, September 2010).


       Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       Georgia State Energy Program (OAS-RA-L-10-06, September 2010).

       Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
       Florida State Energy Program (OAS-RA-10-12, June 2010).


       Audit Report on Management Controls over the Department of Energy's American
       Recovery and Reinvestment Act – Louisiana State Energy Program (OAS-RA-10-09,
       May 2010).
       .




                                                8
                                              Attachment 3


               MANAGEMENT COMMENTS
OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY




                       9
     Attachment 3 (continued)




10
     Attachment 3 (continued)




11
                                          Attachment 3 (continued)



                   MANAGEMENT COMMENTS
NEW YORK STATE ENERGY RESEARCH AND DEVELOPMENT AUTHORITY




                           12
     Attachment 3 (continued)




13
     Attachment 3 (continued)




14
                                                                    IG Report No. OAS-RA-12-08

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
